U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 16, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: James King v. Douglas Brownback, et al., No. 19-718
Dear Mr. Harris:
The conditional cross petition for a writ of certiorari in the above-captioned case was filed
on November 27, 2019, and placed on the docket on December 6, 2019. The government’s
response is now due, after one extension, on January 21, 2020. We respectfully request, under
Rule 30.4 of the Rules of this Court, a further extension of time to and including February 11,
2020, within which to file a response. This extension is necessary because the attorneys with
principal responsibility for preparation of the government’s response have been heavily engaged
with the press of previously assigned matters with proximate due dates.
Counsel for cross-petitioner consents to this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0718
KING, JAMES
DOUGLAS BROWNBACK, ET AL.

ANYA BIDWELL
INSTITUTE FOR JUSTICE
816 CONGRESS AVENUE
SUITE 960
AUSTIN, TX 78701
512-480-5936
ABIDWELL@IJ.ORG
PATRICK JAICOMO
INSTITUTE FOR JUSTICE
901 NORTH GLEBE ROAD
SUITE 900
ARLINGTON, VA 22203
703-682-9320
PJAICOMO@IJ.ORG
D. ANDREW PORTINGA
MILLER JOHNSON
45 OTTAWA AVENUE SW
SUITE 1100
GRAND RAPIDS, MI 49503
703-682-9320
PORTINGAA@MILLERJOHNSON.COM

